                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A13020029                                                                         Page 1 of 1



                Our office received an allegation of plagiarism in a proposal 1 to a collaborative research
         program2 between U.S. researchers and researchers from a foreign country. Based on the program,
         the same collaborative proposal is submitted to the foreign entity and to NSF with the basic purpose
         of stimulating research collaboration between the two countries.

                 We wrote to the U.S. researchers 3 who stated that they were contacted by the foreign
         researcher4 to collaborate. The foreign researcher wrote most of the proposal including the portions
         containing the copied text. The U.S. researchers stated they had edited portions of the proposal but
         not the sections containing the copied text because it was clearly written. Independently, the foreign
         collaborator wrote to our office to confirm the U.S. researcher's explanation.

                 Given the specifics of this case and the smaller amount of copied text, we determined that the
         actions did not rise to the level of research misconduct. We wrote to all collaborators reminding
         them of the need to properly cite text used from another source.

                   This case is closed with no further action taken.




         2


         4




NSF OIG Form 2 (11/02)
